1
IN THE SUPREME COURT OF THE UNITED
STATES
No. 19-1231, 19-1241
Federal Communications Commission, et al.,
Petitioners
v.
Prometheus Radio Project, et al.,
Respondents
National Association of Broadcasters, et al.,
Petitioners
v.
Prometheus Radio Project, et al.,
Respondents
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify
that the Brief of Amicus Curiae Public Knowledge
contains 6984 words, excluding the parts of the brief
that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is
true and correct.
Executed on December 23, 2020
/s/ Harold Feld

COUNSEL OF RECORD
PUBLIC KNOWLEDGE
1818 N. ST., NW
SUITE 410
WASHINGTON, DC 20036
(202) 559-1044

